                   U.S. Department of Agriculture

                      Office of Inspector General
                       Financial & IT Operations




        Audit Report

Fiscal Year 2004 – Review of the
    National Finance Center
        General Controls




                         Report No. 11401-20-FM
                                   October 2004
Executive Summary
Fiscal Year 2004 - Review of the National Finance Center General Controls

Results in Brief     This report presents the results of our review of the internal controls at the
                     Office of the Chief Financial Officer/National Finance Center (OCFO/NFC)
                     as of June 30, 2004. While the center has taken significant corrective
                     actions during the fiscal year, the report contains a qualified opinion on the
                     internal control structure because certain control policies and procedures, as
                     described in the report, were not suitably designed, and/or operating
                     effectively at the time of our review.

                     Our objectives were to perform testing necessary to express an opinion about
                     (1) whether the control objectives and techniques in exhibit A for the U.S.
                     Department of Agriculture’s OCFO/NFC present fairly, in all material
                     respects, the aspects of the OCFO/NFC policies and procedures in place and
                     operating effectiveness during the period October 1, 2003, through June 30,
                     2004, (2) whether this control structure of policies and procedures was
                     suitably designed to provide reasonable assurance that the specified control
                     objectives were complied with satisfactorily, and (3) the operating
                     effectiveness of the specified control structure policies and procedures in
                     achieving specified control objectives.

                     Our audit disclosed that, except for the matters referred to below, the control
                     objectives and techniques identified in exhibit A present fairly, in all
                     material respects, the relevant aspects of OCFO/NFC. Also, in our opinion,
                     except for the deficiencies described below, the policies and procedures, as
                     described, are suitably designed to provide reasonable assurance that the
                     remaining control objectives would be achieved if the described policies and
                     procedures were complied with satisfactorily.

                     OCFO/NFC has made significant improvements to ensure compliance with
                     Federal regulations is achieved; however, we found that OCFO/NFC had not
                     completed certification and accreditation of its major applications and
                     general support systems. We found that OCFO/NFC had not updated its
                     directive and functional statements to clearly define security responsibilities
                     after its 2002 reorganization. Further, OCFO/NFC had not completed all
                     required background investigations for individuals in high-risk positions.
                     OCFO/NFC has continued to make progress in these areas and completed its
                     certification and accreditation by September 30, 2004, in accordance with
                     departmental guidance. OCFO/NFC plans to initiate a review to evaluate
                     security responsibilities, and continue obtaining security clearance as funds
                     permit. Without clearly defined security responsibilities, and adequate
                     background investigations, OCFO/NFC will not be adequately assured that
                     its security management structure is operating effectively; and thus putting
                     its critical resources at increased risk of loss, misuse, and improper
                     modification.

USDA/OIG-A/11401-20-FM                                                                       Page i
                   We found OCFO/NFC personnel and some of its clients had access to critical
                   payroll and personnel applications that exceeded what was required to
                   perform their job functions. In some instances, the access provided also
                   violated separation of duty controls. We also determined that OCFO/NFC
                   was not adequately ensuring that access to sensitive client information that
                   was extracted from these systems was adequately protected from
                   unauthorized disclosure. This occurred because OCFO/NFC had not
                   adequately restricted access based on job responsibilities or complied with its
                   prescribed guidance to monitor access for all its employees and external
                   users. As a result, OCFO/NFC systems are at an increased risk of inadvertent
                   or deliberate misuse without detection.

                   We also found that OCFO/NFC had not ensured that modems on its network
                   were adequately tracked or properly secured, that its firewall configurations
                   were appropriately maintained, or that logs were periodically reviewed on its
                   Web and Unix servers. This occurred because OCFO/NFC had not
                   established adequate controls or complied with its own guidelines to monitor
                   and secure these critical network resources. As a result, OCFO/NFC’s
                   network is at unnecessary risk of intrusion and unauthorized access that may
                   not be detected in a timely manner.

                   Finally, despite prior recommendations, we found that OCFO/NFC needed to
                   strengthen its controls over application changes. Although NFC was
                   documenting application software change requests and approvals, we found
                   that OCFO/NFC needed to ensure that it (1) completes documentation of
                   application change testing, (2) performs user acceptance testing on mandated
                   application software changes, (3) obtains users’ approval of application
                   software requirements, and (4) notifies users of emergency changes for
                   subsequent review. These occurred because OCFO/NFC was not adequately
                   enforcing its established guidance. Until these issues are addressed,
                   OCFO/NFC will face increased risk that application software changes may
                   not meet user needs, not operate as intended, or cause unforeseen adverse
                   impacts on the application.

                   We believe that the internal control weaknesses discussed in this report
                   constitute a material weakness, taken as a whole, and should be reported in
                   OCFO’s Federal Managers’ Financial Integrity Act until corrected.

Recommendations
In Brief           OCFO/NFC is in the process of implementing significant actions to correct
                   the weaknesses we identified in this report and based on prior Office of
                   Inspector General recommendations. Therefore, we make no additional
                   recommendations on outstanding issues.        However, we have made
                   recommendations for OCFO/NFC to:



USDA/OIG-A/11401-20-FM                                                                    Page ii
                     •   Update its functional statements, management directives, and any
                         applicable procedures to clearly define and delineate separation of
                         security functions;

                     •   document and implement access profiles based on job responsibilities
                         and separation of duties principles, and establish a process to
                         periodically review user access to ensure that it remains consistent with
                         job functions and separation of duties principles;

                     •   document adequate justification and develop effective compensating
                         controls for those branches that require update access to applications
                         that violate separation of duty controls;

                     •   identify modem phone lines during business hours, expand current
                         procedures to ensure that the modems identified are adequately
                         secured, survey its organizations to identify modems that are currently
                         in use and authorized and update the database accordingly, and
                         establish a process to annually verify that faxes/modems are still
                         needed;

                     •   document the current firewall configuration, establish a formal
                         configuration change management process for the firewall, and begin
                         performing periodic reviews of the firewall configuration;

                     •   develop a process to ensure that adequate testing has been performed
                         and properly documented by the development organization before its
                         approving official signs change requests; and

                     •   establish controls to ensure that acceptance testing is performed or a
                         waiver is obtained prior to implementation for all mandated changes.

Agency Response    OCFO agreed with the findings and recommendations and will provide a
                   specific response to the recommendations under separate cover.




USDA/OIG-A/11401-20-FM                                                                    Page iii
Abbreviations Used in This Report

ADP          Automated Data Processing
CIO          Chief Information Officer
CSS          Cyber Security Staff
DR           Departmental Regulation
FIPS         Federal Information Processing Standards
FISCAM       Federal Information System Controls Audit Manual
FISMA        Federal Information Security Management Act
GAO          Government Accountability Office
HSPD         Homeland Security Presidential Directive
ID           Identification
IDP          Individual Development Plans
ISSPM        Information Systems Security Program Manager
IT           Information Technology
MOU          Memorandum of Understandings
NFC          National Finance Center
NIST         National Institute of Standards and Technology
OCFO         Office of the Chief Financial Officer
OMB          Office of Management and Budget
OPM          Office of Personnel Management
SP           Special Publication
T&A          Time and Attendance
USDA         U.S. Department of Agriculture




USDA/OIG-A/11401-20-FM                                          Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Report of the Office of Inspector General ............................................................................................ 3

Findings and Recommendations............................................................................................................ 5

    Section 1. Security Program Management and Compliance ...................................................... 5

        Finding 1             Further Actions are Needed to Ensure Compliance with Federal Regulations
                              and to Strengthen its Security Management Structure ............................................ 5
                                  Recommendation No. 1.................................................................................... 8

    Section 2. Mainframe and Network Access Controls ................................................................... 9

        Finding 2             Access Controls to Payroll/Personnel Applications and Sensitive Data
                              Requires Improvement ............................................................................................ 9
                                 Recommendation No. 2.................................................................................. 11
                                 Recommendation No. 3.................................................................................. 12
                                 Recommendation No. 4.................................................................................. 12
                                 Recommendation No. 5.................................................................................. 12
        Finding 3             Network Security and Monitoring Efforts Need Improvement............................. 12
                                 Recommendation No. 6.................................................................................. 15
                                 Recommendation No. 7.................................................................................. 15
                                 Recommendation No. 8.................................................................................. 15

    Section 3. Application Software Change Controls ...................................................................... 16

        Finding 4   Application Software Change Controls Need Improvement................................. 16
                        Recommendation No. 9.................................................................................. 18
                        Recommendation No. 10................................................................................ 18
                        Recommendation No. 11................................................................................ 18
Exhibit A – Office of Inspector General, Review of Selected Controls............................................ 19




USDA/OIG-A/11401-20-FM                                                                                                                    Page v
Background and Objectives
Background                       The National Finance Center (NFC), located in New Orleans, Louisiana, is
                                 operated by the U.S. Department of Agriculture’s (USDA) Office of the
                                 Chief Financial Officer (OCFO). The center operates administrative and
                                 financial systems that support the missions of USDA and other Federal
                                 Departments. Most importantly, the center is responsible for developing and
                                 operating the Payroll/Personnel System. In fiscal year 2003, OCFO/NFC
                                 processed more than $66.9 billion in disbursements and collections for
                                 USDA and its other customers.

                                 OCFO/NFC uses two mainframe computers with the z/OS operating system
                                 and other system software1 to establish and control the environment in which
                                 the administrative and financial applications are processed. The center also
                                 relies on a nationwide telecommunication network that links computer
                                 hardware at remote locations to the OCFO/NFC mainframe computers.

                                 Information security has become increasingly important as computer
                                 technology has advanced and Federal agencies have become more dependent
                                 on computerized information systems to carry out their operations and to
                                 process, maintain, and report essential information. Homeland Security
                                 Presidential Directive (HSPD) – 7, “Critical Infrastructure Identification,
                                 Prioritization, and Protection,” dated December 17, 2003,2 requires agencies
                                 to identify, prioritize, assess, remediate, and protect their internal critical
                                 infrastructure and key resources, and places particular emphasis on
                                 information technology (IT) systems. On December 17, 2002, the President
                                 signed into law the E-Government Act (P.L. 107-347), which includes Title
                                 III, the Federal Information Security Management Act. The Act requires
                                 each Federal agency to develop, document, and implement agency-wide
                                 information security programs to protect the information and information
                                 systems that support the operations and assets of the agency.

                                 To assist auditors in evaluating the effectiveness of information system
                                 controls, the Government Accountability Office issued the Federal
                                 Information System Controls Audit Manual (FISCAM) in January 1999.
                                 This manual describes computer-related controls that auditors should
                                 consider when assessing the integrity, confidentiality, and availability of
                                 computerized data and includes a methodology for assessing these controls.
                                 FISCAM describes six major categories of computer-related general controls

1
  Generally, one set of system software is used to support and control all of the applications that are processed on a particular computer
system. System software helps control and coordinate input, processing, output, and data storage associated with all of the applications
that run on a computer system. Some system software can change data and program code on files without leaving an audit trail or can be
used to modify or delete audit trails. Examples of system software include the operating system, system utilities, file maintenance
software, security software, data communications systems, and database management systems.
2
  HSPD-7 supersedes Presidential Decision Directive 63, “Policy on Critical Infrastructure Protection,” dated May 22, 1998.
USDA/OIG-A/11401-20-FM                                                                                                          Page 1
                   that create the environment in which application systems and controls
                   operate.

                      •   Entity-wide security program planning and management controls
                          provide a framework and continuing cycle of activity for managing
                          risk, developing security policies, assigning responsibilities, and
                          monitoring the adequacy of the organization’s computer-related
                          controls.

                      •   Access controls are used to limit or detect access to computer
                          resources (data, programs, equipment, and facilities) and, thereby,
                          protect these resources against unauthorized modification, loss, and
                          disclosure.

                      •   System software controls limit and monitor access to the powerful
                          programs and sensitive files that control the computer hardware and
                          secure applications supported by the system.

                      •   Segregation of duties controls include the policies, procedures, and
                          organizational structure established to prevent one individual from
                          controlling key aspects of computer-related operations that could be
                          used to conduct unauthorized actions or gain unauthorized access to
                          assets or records.

                      •   Application software development and change controls prevent
                          unauthorized programs or modifications to existing programs from
                          being implemented.

                      •   Service continuity controls ensure that, when unexpected events
                          occur, critical operations continue without interruption or are
                          promptly resumed and critical and sensitive data are protected.

Objectives         Our overall objective was to obtain reasonable assurance about whether the
                   internal control structure of the OCFO/NFC is suitably designed to protect
                   the integrity of the data processed at the OCFO/NFC. More specifically, we
                   performed testing necessary to express an opinion about (1) whether the
                   control objectives and techniques in exhibit A for OCFO/NFC present fairly,
                   in all material respects, the aspects of the OCFO/NFC policies and
                   procedures in place and operating effectiveness, as of June 30, 2004, (2)
                   whether this control structure of policies and procedures was suitably
                   designed to provide reasonable assurance that the specified control objectives
                   were complied with satisfactorily, and (3) the operating effectiveness of the
                   specified control structure policies and procedures in achieving specified
                   control objectives.




USDA/OIG-A/11401-20-FM                                                                    Page 2
                  UNITED STATES DEPARTMENT OF AGRICULTURE

                                      OFFICE OF INSPECTOR GENERAL

                                           Washington D.C. 20250




Report of the Office of Inspector General
TO:    Patricia E. Healy
       Acting Chief Financial Officer
       U.S. Department of Agriculture

We have examined the control objectives and techniques identified in exhibit A for the U.S.
Department of Agriculture’s (USDA), Office of the Chief Financial Officer/National Finance Center
(OCFO/NFC). Our examination included procedures to obtain reasonable assurance about (1) whether
the control objectives and techniques of the OCFO/NFC present fairly, in all material respects, the
aspects of the OCFO/NFC’s policies and procedures in place and operating effectiveness during the
period October 1, 2003, through June 30, 2004, (2) whether the control structure of policies and
procedures was suitably designed to provide reasonable assurance that the specified control objectives
were complied with satisfactorily, and (3) the operating effectiveness of the specified control structure
policies and procedures in achieving specified control objectives. The control objectives were
specified by OCFO/NFC.

Our audit was conducted in accordance with “Government Auditing Standards” issued by the
Comptroller General of the United States and standards issued by the American Institute of Certified
Public Accountants and included those procedures we considered necessary to obtain a reasonable
basis for rendering our opinion.

While OCFO/NFC has made significant progress in fiscal year 2004, most notably in the security of its
information technology (IT) systems, our audit disclosed that further improvements are needed.
Specifically, OCFO/NFC needs to ensure that security responsibilities are clearly defined, and required
background investigations are conducted. We also noted that improvements are needed with general
network security, access controls, and application change controls. Until these security areas are
addressed, OCFO/NFC faces an increased risk of exposing its systems to improper access.

In our opinion, except for the matters referred to above, the control objectives and techniques
identified in exhibit A of this report present fairly, in all material respects, the relevant aspects of
OCFO/NFC. Also, in our opinion, except for the matters referred to above, the policies and
procedures, as described, were suitably designed to provide reasonable assurance that the remaining
control objectives would be achieved if the described policies and procedures were complied with
satisfactorily.

Also, in our opinion, except for the matters referred to above, the policies and procedures that were
tested, as described in the exhibit, were operating with sufficient effectiveness to provide reasonable,
but not absolute, assurance that the control objectives specified were achieved during the period from
October 1, 2003, through June 30, 2004. The scope of this engagement did not include tests to

USDA/OIG-A/11401-20-FM                                                                            Page 3
Findings and Recommendations
Section 1.        Security Program Management and Compliance




Finding 1                       Further Actions are Needed to Ensure Compliance with Federal
                                Regulations and to Strengthen its Security Management
                                Structure

                                OCFO/NFC has made significant improvements to comply with Federal
                                regulations; however, we found that OCFO/NFC had not completed
                                certification and accreditation of its major applications and general support
                                systems. Further, we found that OCFO/NFC had not updated its directive
                                and functional statements to clearly define security responsibilities after its
                                2002 reorganization. Further, OCFO/NFC had not completed all required
                                background investigations for individuals in high-risk positions. OCFO/NFC
                                has continued to make progress in these areas and completed its certification
                                and accreditation by September 30, 2004, in accordance with departmental
                                guidance. Finally, OCFO/NFC planned to initiate a review to evaluate
                                security responsibilities, and continue obtaining security clearances as funds
                                permit. Without clearly defined security responsibilities, and adequate
                                background investigations, OCFO/NFC will not be adequately assured that
                                its security management structure is operating effectively; and thus putting its
                                critical resources at increased risk of loss, misuse, and improper modification.

                                The Office of Management and Budget (OMB) and the National Institute of
                                Standards and Technology (NIST) recognize the need for a continuous cycle
                                of risk-based security management activities to ensure that effective security
                                controls are established and maintained. This cycle includes (1) assessing
                                risk; (2) developing security plans based on the results of risk assessments;
                                (3) testing the effectiveness of security policies, procedures, and controls
                                (certification); and (4) authorizing information systems’ processing
                                (accreditation). USDA’s Chief Information Officer (CIO) has issued
                                guidance for certifying and accrediting systems, which is based on the NIST3
                                requirement that information systems’ certification and accreditation be
                                based on risk assessments and security plans.

                                OMB4 also requires that security-related responsibilities of offices and
                                individuals throughout the entity should be clearly defined to include those of
                                (1) information resource owners and users, (2) information resources

3
  NIST Special Publication 800-37, “Guide for the Security Certification and Accreditation of Federal Information Systems,” dated May
2004.
4
  OMB Circular A-130, Appendix III, “Security of Federal Automated Information Resources,” dated November 30, 2000.
USDA/OIG-A/11401-20-FM                                                                                                      Page 5
                                management and data processing personnel, (3) senior management, and (4)
                                security administrators.

                                Further, Executive Order No. 10450,5 as amended, established general
                                requirements that every competitive service position be designated at a risk
                                level commensurate with the public trust responsibilities of the position, and
                                be made subject to investigation. In 1998, OCFO/NFC issued its own
                                directive6 to implement the background investigation requirements.

                                Certification and Accreditation of OCFO/NFC General Support Systems and
                                Major Applications Not Yet Completed, as of June 30, 2004

                                OCFO/NFC had revised its certification and accreditation process in
                                accordance with departmental guidelines, completed risk assessments and
                                security plans for its general support systems and major applications, and
                                begun to perform certifications of its information systems based on its new
                                procedures. However, it had not completed the certification and accreditation
                                of its general support systems and major applications by the end of our
                                fieldwork. Without the necessary security certifications and accreditations,
                                OCFO/NFC could not ensure the secure operations of its information
                                systems; therefore, placing sensitive information at increased risk of loss,
                                misuse, and improper modification, for the period under review.

                                OCFO/NFC officials informed us that certifications of its general support
                                systems and major applications were completed by September 30,
                                2004.Security Responsibilities Not Clearly Defined

                                During fiscal year 2002, OCFO/NFC went through a major reorganization
                                change and some security responsibilities were transferred within the
                                organization. However, we noted that OCFO/NFC had not updated certain
                                procedures to clearly identify security responsibilities and the individuals
                                who were responsible to perform those security functions. When security
                                procedures are not updated to clearly delineate separation of security
                                functions, individuals may misunderstand or improperly implement their
                                security responsibilities and therefore, controls may be inconsistently applied.

                                Prior to 2002, most security functions at OCFO/NFC were within the
                                Information Systems Policy and Control Staff (ISPCS). In April 2002,
                                OCFO/NFC created the Cyber Security Staff (CSS) to provide overall
                                security guidance and oversight. OCFO/NFC transferred some of the
                                functions such as disaster recovery and security awareness from ISPCS to
                                CSS, while other functions such as preparing security plans and risk
                                assessments were transferred to system owners. However, we found that

5
 Executive Order No. 10450, “Security Requirements for Government Employment,” signed April 27, 1953.
6
 Title VII, Chapter 14, Directive 7, “Risk Levels, Position Sensitivity Descriptions, and Background Investigations for OCFO/NFC and
Contractor Personnel”
USDA/OIG-A/11401-20-FM                                                                                                     Page 6
                                 security responsibilities have not been updated in OCFO/NFC directives,
                                 functional statements, and service center description to clearly delineate
                                 separation of security functions.

                                 For example, OCFO/NFC had not updated its directives to move the
                                 Information Systems Security Project Manager (ISSPM) responsibilities to
                                 the Chief of CSS. OCFO/NFC management advised us that the ISSPM
                                 designation was made to the Chief of CSS; however, a position in the
                                 organization structure has not been created or position description written
                                 defining the ISSPM.

                                 OCFO/NFC is currently going through another reorganization. Officials
                                 advised us that they would initiate a review to further clarify security
                                 responsibilities. OCFO/NFC had already established a team to review the
                                 functional and organizational changes and develop individual organizational
                                 responsibilities and accountability. Further OCFO/NFC officials informed us
                                 that they have requested funding to have an independent assessment of the IT
                                 security program to determine the best alignment of security functions
                                 according to industry best practices.

                                 Required Background Investigations Not Obtained

                                 While OCFO/NFC has revised its controls to implement the Office of
                                 Personnel Management (OPM) requirements for assigning risk levels and
                                 performing background investigations, we determined that these controls
                                 were not fully operational. Even though progress has been made, we
                                 determined that background investigations or reinvestigations within the
                                 required timeframe have not been completed for 27 high-risk IT specialist
                                 positions.7 Without the necessary security background investigations and
                                 reinvestigations, OCFO/NFC faces the risk of exposing its information
                                 resources to loss or harm that could be caused by these individuals.

                                 We obtained a background investigation status report from OCFO/NFC and
                                 performed an analysis to determine if progress has been made relating to
                                 background investigations. We noted that OCFO/NFC had taken some
                                 corrective actions and reclassified positions such as security administrators,
                                 system programmers, and application programmers as “high-risk.” In total,
                                 OCFO/NFC had classified 131 information system positions as high-risk,
                                 compared to only 13 during our prior audit. However, despite this progress,
                                 we identified an additional 27 high-risk information system positions that
                                 either did not have a background investigation or did not have a
                                 reinvestigation within the required 5-year period.8

7
 Our review was limited to high-risk IT positions (series 2210) in four divisions of OCFO/NFC.
8
 One of these positions had not had an investigation, and the person had been employed at OCFO/NFC since at least 1990. The other 26
positions had not had a reinvestigation within the required timeframe; several of these 26 positions had an initial investigation from the
1970s.
USDA/OIG-A/11401-20-FM                                                                                                          Page 7
                   OCFO/NFC recently updated its procedures for conducting background
                   investigations in a timely manner. OCFO/NFC’s goal is to complete as many
                   reinvestigations as funding would permit.

                   Since we recommended in our prior audit that background investigations be
                   completed in a timely manner and renewed every 5 years for personnel in
                   high-risk positions, we are not making further recommendations.

Recommendation No. 1

                   OCFO/NFC should update its functional statements, management directives,
                   and any applicable procedures to clearly define and delineate separation of
                   security functions.




USDA/OIG-A/11401-20-FM                                                                 Page 8
Section 2. Mainframe and Network Access Controls

                                    Access controls, such as user identifications (ID) and passwords, protect
                                    network applications and data against unauthorized access. Network
                                    administrators should provide only authorized users access to network
                                    applications and data, and ensure that such access is limited to what is
                                    needed to perform the user’s job functions. In addition, administrators need
                                    to ensure that network devices such as modems and firewalls are properly
                                    configured to ensure that access to network resources is protected against
                                    unauthorized or malicious access. Without strong access controls, privacy
                                    and financial data is subject to loss, disclosure, and unauthorized
                                    modification.




Finding 2                           Access Controls to Payroll/Personnel Applications and Sensitive
                                    Data Requires Improvement

                                    We found OCFO/NFC personnel and some of its clients had access to
                                    critical payroll and personnel applications that exceed what was required to
                                    perform their job functions. In some instances, the access provided also
                                    violated separation of duty controls. This occurred because OCFO/NFC had
                                    not adequately restricted access based on job responsibilities or complied
                                    with its prescribed guidance to monitor access for all its employees and
                                    external users. We also determined that OCFO/NFC had not adequately
                                    ensured that access to sensitive client information extracted from these
                                    systems was adequately protected from unauthorized disclosure.
                                    Inappropriate access increases the vulnerability of OCFO/NFC applications
                                    and the payroll/personnel system to fraudulent activity.

                                    OCFO/NFC directives9 state that OCFO/NFC employees should be granted
                                    access authority only to those resources required to carry out their jobs and
                                    that the number of employees with authorized access will be limited to the
                                    minimum number needed to effectively perform the required functions.
                                    OCFO/NFC directives10 also state that the separation of functions will be
                                    used as an internal control to guard against personnel having the opportunity
                                    to commit and/or conceal intentional or unintentional alteration, destroy data
                                    or software, or view data that is outside the scope of the employees normal
                                    job assignments. In addition, if the separation of incompatible functions is
                                    not possible, compensating controls must be used.




9
    Title VII, Chapter 11, Management Directive No. 27.
10
     Title VII, Chapter 11, Directive 40.
USDA/OIG-A/11401-20-FM                                                                                     Page 9
                                      Access to Payroll and Personnel Applications

                                      We reviewed access reports provided by OCFO/NFC and found the
                                      following instances where access to payroll and personnel applications was
                                      not adequately restricted based on job responsibility or separation of duties
                                      principles:

                                            •   We found over 60 individuals at OCFO/NFC that had update access
                                                to critical payroll and personnel systems or data without a related job
                                                function need. We noted programmers who had access to update
                                                production data, individuals who retained update access from a
                                                previous assignment, and individuals who obtained update access that
                                                only required read access. OCFO/NFC agreed to change all of the
                                                inappropriate accesses identified during our review.

                                            •   We identified 68 individuals at OCFO/NFC that had the ability to
                                                update both payroll and personnel actions, and add positions and
                                                update tables within the payroll and personnel systems. This access
                                                could have allowed fraudulent transactions to be processed. Further,
                                                OCFO/NFC did not have effective compensating controls in place to
                                                detect possible fraudulent transactions that could have occurred due to
                                                this level of access. OCFO/NFC officials agreed to review these
                                                accesses and make changes where possible or implement
                                                compensating controls.

                                            •   We found users external to OCFO/NFC that had update access to four
                                                critical payroll and personnel applications. Having update access to
                                                these applications violates separation of duty controls. On one of its
                                                critical web-based systems, users both internal and external to
                                                OCFO/NFC could initiate incompatible transactions within the same
                                                system.

                                      The above instances could have been avoided if OCFO/NFC had (1)
                                      adequately maintained access profiles based on job functions and separation
                                      of duties principles and (2) established an effective mechanism to
                                      periodically review access granted to employees to ensure that it remains
                                      consistent with job functions and separation of duties principles.
                                      OCFO/NFC directives11 state that the OCFO/NFC will produce reports for
                                      division/staff security coordinators that show the scope of an employee’s
                                      security access and/or lists of who has access to specific data and that the
                                      division/staff security coordinators will distribute monthly access
                                      authorization reports to the appropriate branch chiefs.           Currently,
                                      OCFO/NFC does not periodically distribute reports of applications access,
                                      and based on our review, branch chiefs were not reviewing applications
11
     Title VII, Chapter 11, Directive 40.
USDA/OIG-A/11401-20-FM                                                                                        Page 10
                   access on a periodic basis. OCFO/NFC informed us that the ultimate
                   solution to this problem might lie in the reengineering of OCFO/NFC access
                   administration profiles into a role-based process.

                   Access to Other Sensitive Data

                   We also reviewed access to certain sensitive client information that had been
                   extracted from payroll and personnel applications and found that that
                   OCFO/NFC had not always adequately protected sensitive information from
                   unauthorized disclosure.

                   For instance, we found that biweekly download files for one of
                   OCFO/NFC’s clients that contained sensitive information protected by the
                   Privacy Act of 1974 had been posted to OCFO/NFC’s Download Center,
                   which was designed to contain only non-sensitive information.
                   Consequently, the authentication and monitoring controls over this system
                   were not adequately designed to protect sensitive information. This
                   occurred because information posted to the download center was not
                   controlled and monitored by the system owner.

                   OCFO/NFC informed us that they had removed the sensitive information
                   from the Download Center and would ensure that the system owner
                   approves all future information. OCFO/NFC also informed us that they are
                   also evaluating the access controls over the Download Center.

                   Finally, we also found that sensitive information stored in two libraries used
                   to share extracted payroll and personnel information between OCFO/NFC
                   programming and support staff sections and with user organizations was not
                   adequately protected from unauthorized disclosure. Our review disclosed
                   that 603 users had access to sensitive information in one of these libraries,
                   and 424 users had access to sensitive information in the other library. This
                   occurred because, even though some of the files in these libraries contained
                   sensitive information protected by the Privacy Act of 1974, access was
                   generally granted to all files in these libraries regardless of their content.

Recommendation No. 2

                   Document and implement access profiles based on job responsibilities and
                   separation of duties principles, and establish a process to periodically review
                   user access to ensure that it remains consistent with job functions and
                   separation of duties principles.




USDA/OIG-A/11401-20-FM                                                                   Page 11
Recommendation No. 3

                   Document adequate justification and develop effective compensating
                   controls for those branches that require update access to applications that
                   violate separation of duty controls.

Recommendation No. 4

                   Establish controls to ensure that the system owner approves data loaded on
                   the Download Center and access to that data.

Recommendation No. 5

                   Restructure access controls over the libraries used to share information
                   extracted from OCFO/NFC payroll and personnel systems to provide greater
                   protection of sensitive information.




Finding 3          Network Security and Monitoring Efforts Need Improvement

                   OCFO/NFC had not ensured that modems on its network were adequately
                   tracked or properly secured, that its firewall configurations were
                   appropriately maintained, or that logs were periodically reviewed on its Web
                   and Unix servers. This occurred because OCFO/NFC had not established
                   adequate controls or complied with its own guidelines to monitor and secure
                   these critical network resources. As a result, OCFO/NFC’s network is at
                   unnecessary risk of intrusion and unauthorized access that may not be
                   detected in a timely manner.

                   Modem Security

                   OCFO/NFC could not be adequately assured that its modems were properly
                   secured. This occurred because OCFO/NFC’s policies and procedures for
                   tracking, detecting, and properly securing modems were inadequate and not
                   always being followed by personnel. Modems pose a serious security risk
                   because they provide “back door” points of entry into OCFO/NFC’s network
                   and bypass central protective devices such as the firewall. Potential attackers
                   can use an unsecured modem to obtain unauthorized access to OCFO/NFC
                   network and systems.




USDA/OIG-A/11401-20-FM                                                                   Page 12
                             Departmental Regulations (DR)12 require agencies to evaluate security
                             measures in place on network gateways. Further, OCFO/NFC13 established
                             its own policy outlining responsibilities and procedures for requesting
                             telephone lines for phones, fax machines, and modems. This directive
                             requires a fax or modem request form be submitted for approval along with a
                             description of how the modem would be secured. This directive also requires
                             OCFO/NFC to maintain information regarding each request and assignment
                             of phone numbers in a database, and requires that OCFO/NFC annually
                             verify that modems are still needed.

                             In 2003, we reported14 that OCFO/NFC had established procedures to
                             identify active modem lines, but had not evaluated the security measures in
                             place to ensure that modem phone lines were properly protected. In
                             response, OCFO/NFC informed us that they had revised existing procedures
                             to ensure that all modems are identified, properly secured, and reviewed on a
                             monthly basis. However, since May 2003, OCFO/NFC performed only 2
                             evaluations. Further, we found that OCFO/NFC revised its procedures to
                             only identify modems that were available during non-business hours.
                             Consequently, only 12 modems phone lines were identified in its May/June
                             2004 evaluation while 76 were identified in its May 2003 evaluation when
                             business hours were not specifically excluded. Finally, OCFO/NFC had not
                             instituted a process to ensure that identified modems were properly secured.

                             We also reviewed the results of OCFO/NFC’s evaluations and compared the
                             results to its database of modems. We verified that OCFO/NFC had properly
                             secured those modems. While none of the modems we selected had been
                             improperly secured, we found that 2 of the 12 modem lines identified in one
                             of its evaluations were not in the modem database. Further, we found
                             modems in the database that were no longer needed or assigned to staff that
                             had been relocated, reassigned, retired, or deceased. This occurred because
                             users were not reporting changes needed to modem lines to the responsible
                             unit of OCFO/NFC, and OCFO/NFC had not begun its annual review
                             process. Two of these lines were deleted/disconnected from the phone
                             system as the result of our inquiry.

                             In addition, we found that OCFO/NFC had not always maintained the proper
                             authorizations for the modems in its database. We requested authorization
                             forms for the first 10 modems on the database listing. However, OCFO/NFC
                             had only three authorizations on file. Officials told us that the remaining
                             seven were considered as “grandfathered-in” because they were in service
                             prior to March 2001 when OCFO/NFC issued its telephone and fax/modem
                             directive.

12
   DR 3140-1, “USDA Information System Security Policy,” dated May 15, 1996.
13
   Management and Administrative Directives Manual, Chapter 12, “Telecommunications Management,” Directive 2, “Requesting
Telephone and Fax/Modem Lines”, dated March 5, 2001.
14
   Audit Report No. 11401-15-FM, “Fiscal Year National Finance Center Review of Internal Controls,” dated November 2003.
USDA/OIG-A/11401-20-FM                                                                                         Page 13
                                Firewall Documentation and Configuration Management Need Improvement

                                OCFO/NFC had not formally documented or adequately maintained support
                                for its firewall configurations. This occurred because OCFO/NFC had not
                                implemented a formal configuration management process for its firewalls.
                                We also identified rules that were no longer needed but remained in the
                                system because OCFO/NFC was not periodically reviewing its firewall
                                configurations. As a result, OCFO/NFC does not have adequate assurance
                                that its firewalls are properly configured.

                                NIST15 and USDA’s CIO16 require that firewall rules be documented and
                                periodically reviewed to ensure their accuracy. We found that OCFO/NFC
                                was unable to provide supporting documentation for 15 of 17 firewall system
                                rules selected for review. We also identified certain firewall rules that were
                                no longer needed.

                                We also found that OCFO/NFC did not use a formal change control process
                                for changing firewall rules. Officials informed us that the approval of
                                changes to the firewall configuration occurs informally through e-mail.
                                Maintaining supporting documentation in a personal e-mail account is not an
                                efficient and effective system because generally only the account holder has
                                access to the documentation, and does not ensure that all the appropriate
                                personnel are made aware of the change. Without a formal change control
                                process over its firewalls and conducting periodic reviews, OCFO/NFC
                                cannot be assured that its firewalls are configured effectively, unnecessarily
                                putting its network resources at risk of intrusion.

                                OCFO/NFC System Security Monitoring for Webservers and UNIX Servers
                                Needs Improvement

                                OCFO/NFC had not adequately monitored user activity for security purposes
                                on Webservers17 and UNIX systems. This occurred because OCFO/NFC did
                                not have a process in place to perform routine monitoring of these systems.
                                The lack of a formal monitoring process reduces the possibility that security
                                incidents involving Webservers or UNIX systems will be detected and
                                corrected in a timely manner.

                                NIST18 recognizes that routinely monitoring access can help identify
                                significant problems and deter users from inappropriate and unauthorized
                                activities. Because the volume of security information is likely to be too
                                voluminous to review routinely, the most effective monitoring efforts are
                                those that selectively target specific actions. These automated monitoring

15
   NIST Special Publication 800-41, “Guidelines on Firewalls and Firewall Policy,” dated January 2002.
16
   Cyber Security Policy, CS-012, “Gateway and Firewall Technical Security Standards,” dated January 22, 2002.
17
   These servers are the front-end interface servicing user’s web/internet requests. These servers may use database connections to
backend database but do not have database residing on them.
18
   NIST Special Publication 800-12, “An Introduction to Computer Security: The NIST Handbook,” dated October 1995.
USDA/OIG-A/11401-20-FM                                                                                                 Page 14
                                   efforts should include provisions to identify and investigate both failed
                                   attempts to access sensitive data and resources and unusual or suspicious
                                   patterns of successful access.

                                   Although OCFO/NFC had enabled logging19 on its Web and UNIX systems
                                   and reviewed those logs as part of a security incident investigation,
                                   OCFO/NFC officials told us that they had not regularly generated system
                                   monitoring reports that would reveal suspicious access activity on these
                                   systems. OCFO/NFC recognized that this lack of monitoring was a security
                                   weakness and planned to implement monitoring software to correct this
                                   weakness.

Recommendation No. 6

                                   Resume identifying modem phone lines during business hours, expand
                                   current procedures to ensure that the modems identified are adequately
                                   secured, survey its organizations to identify modems that are currently in use
                                   and authorized and update the database accordingly, and establish a process
                                   to annually verify that faxes/modems are still needed.

Recommendation No. 7

                                   Document the current firewall configuration, establish a formal configuration
                                   change management process for the firewall, and perform periodic reviews of
                                   the firewall configuration.

Recommendation No. 8

                                   Identify sensitive system resources that should be included in its active
                                   monitoring process; develop, test, and document system reports used in its
                                   monitoring process; and identify and document the types of unusual activity
                                   on these reports that should be investigated, for Webservers and UNIX
                                   systems.




19
     Recording of events made by a particular software package.
USDA/OIG-A/11401-20-FM                                                                                  Page 15
Section 3. Application Software Change Controls




Finding 4                      Application Software Change Controls Need Improvement

                              Despite prior recommendations,20 we found that OCFO/NFC needs to
                              strengthen its controls over application changes. Although NFC was
                              documenting application software change requests and approvals, we found
                              that OCFO/NFC needs to ensure that it (1) completes documentation of
                              application change testing, (2) performs user acceptance testing on mandated
                              application software changes, (3) obtains users’ approval of application
                              software requirements, and (4) notifies users of emergency changes for
                              subsequent review. OCFO/NFC is currently in the process of implementing a
                              new standardized change management system and process to support
                              application changes. Despite its own policies to document approval and
                              testing, OCFO/NFC was not adequately enforcing its established guidance.
                              Until these issues are addressed, OCFO/NFC will face increased risk that
                              application software changes may not meet user needs, not operate as
                              intended, or cause unforeseen adverse impacts on the application.

                              To determine if application software changes were adequately documented,
                              approved, and tested, we selected 25 of the 1,182 non-emergency changes
                              and 15 of the 51 emergency changes to applications that were implemented
                              between October 1, 2003, and March 31, 2004. The following summarizes
                              the results of our review:

                              Testing of Application Software Changes

                              OCFO/NFC was unable to provide adequate documentation for 16 of the 25
                              non-emergency changes, and 8 of the 15 emergency changes we reviewed.
                              Therefore, we could not determine if OCFO/NFC adequately tested
                              application software changes. OCFO/NFC guidance for application software
                              testing states that the programmer or project leader of an application change
                              request must develop test plans and test results to reasonably ensure that
                              proposed changes would function properly. These test plans and results must
                              be maintained in the project folder.

                              OCFO/NFC officials informed us that they had begun using a contractor in
                              one division to develop unit test plans for non-emergency changes to its
                              payroll applications, and that they would begin enforcing this requirement for
                              other applications and emergency changes. In addition, OCFO/NFC is in the
20
   Audit Report No. 11401-9-FM, “Selected Information Technology General Controls At The National Finance Center Need
Strengthening,” dated March 2002; Audit Report No. 11401-15-FM, “Fiscal Year 2003 National Finance Center Review of Internal
Controls,” dated November 2003.
USDA/OIG-A/11401-20-FM                                                                                            Page 16
                                       process of implementing procedures for performing biweekly system testing
                                       for its payroll and personnel systems.
                                       Acceptance Testing on Mandated Application Changes

                                       OCFO/NFC officials informed us that acceptance testing was not performed
                                       for any of the 25 mandated changes that we reviewed. In addition,
                                       OCFO/NFC had not obtained waivers from users, development/maintenance
                                       organization, quality assurance staff, or other technical personnel.
                                       OCFO/NFC officials informed us that most of their systems are on a
                                       biweekly release schedule, which does not provide enough time to conduct
                                       formal user acceptance testing. As a result, OCFO/NFC faces increased risks
                                       that application changes will not meet user requirements or operate as
                                       intended.

                                       The OCFO/NFC Scheduled Software Maintenance Directive21 states that
                                       acceptance testing is required for mandated changes unless a waiver is
                                       approved by the users, development/maintenance organization, the quality
                                       assurance staff, and other technical personnel after a review of the
                                       development/maintenance organization’s software testing.         However,
                                       development organization testing guidance provides conflicting information
                                       on when acceptance testing is required.

                                       OCFO/NFC informed us that it intends to include customer representatives in
                                       the system testing in the future.

                                       User Review of Software Requirements and Other Application Changes

                                       We found that OCFO/NFC had documented system requirements for 20 of
                                       the 25 non-emergency changes that we reviewed, but had not obtained user
                                       approval of these software requirements for any of these 20 changes. This
                                       occurred because OCFO/NFC was not complying with its own guidance that
                                       requires user sign-off on these system requirements. As a result, OCFO/NFC
                                       cannot be adequately assured that proposed changes meet user requirements.

                                       The NFC’s Application System Life Cycle22 states that any modification,
                                       reconfiguration, or redevelopment would include user review of functional
                                       requirements. While OCFO/NFC had developed a template to guide the
                                       development of software requirements documents, officials stated that
                                       software requirement documents are at the discretion of the programmer and
                                       are not required. Each software requirement document must have a sign-off
                                       sheet, which documents approval by OCFO/NFC officials and a customer
                                       representative.



21
     Title VII, Chapter 11, Directive 47, Scheduled Software Maintenance (Revision 2), November 14, 2003
22
     Title VII, Chapter 11, Directive 48, Application System Life Cycle (Revision 2), November 14, 2003

USDA/OIG-A/11401-20-FM                                                                                     Page 17
                   We also found that OCFO/NFC had not established a process to notify the
                   designated customer representative of emergency changes for subsequent
                   review. OCFO/NFC officials informed us that they had begun meeting with
                   the customer representative for one of its systems on a bi-weekly basis to
                   discuss emergency changes, and would begin a similar process for the other
                   applications.

Recommendation No. 9

                   Develop a process to ensure that adequate testing has been performed and
                   properly documented by the development organization before its approving
                   official signs the change request.

Recommendation No. 10

                   Establish controls to ensure that acceptance testing is performed or a waiver
                   is obtained prior to implementation for all mandated changes.

Recommendation No. 11

                   Establish controls to ensure that software requirements for application
                   modifications, reconfigurations, and redevelopments are properly
                   documented and approved by a customer representative.




USDA/OIG-A/11401-20-FM                                                                  Page 18
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                     Exhibit A – Page 1 of 13


The objectives of our examination were to perform testing necessary to express an opinion about (1)
whether the control objectives and techniques identified in this exhibit present fairly, in all material
respects, the aspects of the Office of the Chief Financial Officer (OCFO) National Finance Center
(OCFO/NFC)’s policies and procedures in place from October 1, 2003, through June 30, 2004, (2)
whether the control structure of policies and procedures was suitably designed to provide reasonable
assurance that the specified control objectives were complied with satisfactorily, and (3) the operating
effectiveness of the specified control structure policies and procedures in achieving specified control
objectives.

This report is intended to provide users of OCFO/NFC with information about the control structure
policies and procedures at OCFO/NFC that may affect the processing of user organizations’
transactions and to provide users with information about the operating effectiveness of the policies and
procedures that were tested. This report, when combined with an understanding and assessment of the
internal control structure policies and procedures at user organizations, is intended to assist user
auditors in (1) planning the audit of user organizations’ financial statements, and (2) in assessing
control risk for assertions in user organizations’ financial statements that may be affected by policies
and procedures at OCFO/NFC.

Our testing of OCFO/NFC’s control structure policies and procedures was restricted to the control
objectives and the related policies and procedures listed in the matrices in this exhibit. Our testing was
not intended to apply to any other procedures not included in the aforementioned matrices or to
procedures that may be in effect at user organizations.

Our review was performed through inquiry of key OCFO/NFC personnel, observation of activities,
examination of relevant documentation and procedures, and tests of controls. We also followed up on
known control weaknesses identified in prior OIG audits. We performed such tests as we considered
necessary to evaluate whether the operating and control procedures described by OCFO/NFC and the
extent of compliance with them are sufficient to provide reasonable, but not absolute, assurance that
control objectives are achieved.

The description of the tests of operating effectiveness and the results of those tests are included in the
following section of this report.




USDA/OIG-A/11401-20-FM                                                                             Page 19
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                              Exhibit A – Page 2 of 13

    Control Objective              Control Techniques                Tests Performed                       Conclusions


    1. Ensure the             1. Implement and maintain         Verified that OCFO/NFC had          The control structure policies
       necessary controls        an effective security          developed risk assessments and      and procedures were suitably
       are in place to           program by assuring:           security plans for its major        designed to achieve the
       mitigate and/or           a. Risk assessments are        applications and general            control objective specified,
       reduce the potential         performed.                  support systems.                    had been placed in operation
       for fraud, waste,         b. Security plans are                                              and operating effectively,
       and abuse of IT              developed and               Reviewed the departmental           except as noted below.
       information assets.          maintained.                 guidelines for certification and
                                 c. Policies and procedures     accreditation for general
                                                                                                    OCFO/NFC had revised its
                                    to reduce risks are         support systems and major
                                    implemented.                applications.
                                                                                                    certification and accreditation
                                 d. Periodic security                                               process in accordance with
                                    awareness training is       Obtained security awareness         departmental guidelines.
                                    provided.                   database as of end of fiscal year   However, it had not
                                 e. Testing and evaluation      2003 and performed analysis to      completed the certification
                                    of plans, procedures,       determine the number of             and accreditation of its
                                    and security controls are   employees who did/did not take      general support systems and
                                    conducted.                  the security awareness training.    major applications for the
                                 f. Security incident           Reviewed NIST SP 800-18.            period under review. The
                                    response capability is                                          C&As were completed by
                                    maintained.                 Reviewed control self               September 30, 2004.
                                                                assessments for OCFO/NFC            (See Finding No. 1.)
                                                                business units.

                                                                Interviewed OCFO/NFC
                                                                officials and reviewed NFC
                                                                Directives.
    2. Ensure that                                              Selected a sample of                The control structure policies
       reimbursement                                            Memorandum of                       and procedures were suitably
       agreements                                               Understandings (MOU) for two        designed to achieve the control
       developed between                                        agencies.                           objective specified, had been
       NFC and user                                                                                 placed in operation and were
       agencies for                                                                                 operating effectively.
       provision of
       services and cost
       development are
       accurate.
    3. Ensure that            a. Develop requirements           Interviewed OCFO/NFC                The control structure policies
       requirements for          documentation that is in       personnel and reviewed              and procedures were suitably
       information               compliance with Title          applicable directives and           designed to achieve the control
       systems are               VII, Chapter 11,               procedures.                         objective specified, had been
       developed,                Directive 48,                                                      placed in operation and were
       documented, and           Application System Life        Selected and reviewed               operating effectively, except as
       maintained and that       Cycle.                         mandated application changes        noted below.
       they satisfy user      b. Submit requirements            that were implemented between
       needs.                    package to the user for        October 1, 2003, and March 31,      OCFO/NFC was not obtaining
                                 feedback and prepare           2004.                               user approval of software
                                 adjustments to the                                                 requirements. We found that
                                 package, if necessary.                                             OCFO/NFC had documented
                              c. Obtain user sign off on                                            system requirements for 20 of
                                 requirements packages,                                             the 25 non-emergency changes
                                 when appropriate.                                                  that we reviewed, but had not
                                                                                                    obtained user approval of these
                                                                                                    software requirements for any
                                                                                                    of these 20 changes.
                                                                                                    (See Finding No. 4.)

USDA/OIG-A/11401-20-FM                                                                                                         Page 20
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                        Exhibit A – Page 3 of 13

    Control Objective            Control Techniques               Tests Performed                    Conclusions


    4. Ensure that NFC's    a.    Established, as dictated   Observed OCFO/NFC                The control structure policies
       application                by requirements            personnel process. Reviewed      and procedures were suitably
       software systems           documentation and/or       OCFO/NFC procedures for the      designed to achieve the control
       are developed to           users’ requests, systems   selected applications.           objective specified, had been
       minimize invalid,          checks, and edits to                                        placed in operation and
       lost, or corrupted         verify the validity of     T&A's, reviewed access reports   operating effectively, except as
       data, and to               data processed in and      for Table Management System..    noted below.
       maintain data              interfaced between NFC
       security and               systems.                   Selected and reviewed            OCFO/NFC officials told us
       integrity.           b.    Restrict developer         mandated application changes     that acceptance testing is
                                  access to data on an "as   that were implemented between    performed for all application
                                  needed" basis.             October 1, 2003, and March 31,   changes that are classified as
                            c.    Adhere to acceptable       2004.                            routine; however, we found
                                  standard development                                        that OCFO/NFC was not
                                  practices for              Randomly selected emergency      performing acceptance testing
                                  specifications, coding,    application changes              application changes that are
                                  security, and testing of   implemented between October      classified as mandated. (See
                                  software at each phase     1, 2003, and March 31, 2004.     Finding No. 4.)
                                  along the development
                                  lifecycle.                 Interviewed responsible          We also found that
                            d.    Adhere to NFC’s policy     OCFO/NFC personnel.              OCFO/NFC had not
                                  for software                                                sufficiently documented the
                                  configuration control as                                    software testing for the
                                  documented by ISPCS.                                        application change requests.
                                                                                              Consequently, we could not
                                                                                              always determine if adequate
                                                                                              testing had occurred. (See
                                                                                              Finding No. 4.)

                                                                                              We noted that individuals at
                                                                                              OCFO/NFC had update access
                                                                                              to applications that was not
                                                                                              within the scope of their job
                                                                                              function. (See Finding No. 2.)




USDA/OIG-A/11401-20-FM                                                                                                   Page 21
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                          Exhibit A – Page 4 of 13

    Control Objective            Control Techniques               Tests Performed                      Conclusions


    5.   Ensure that        a.    Restrict access to         Reviewed access reports for the   The control structure policies
         entries added to         specific personnel to      Table Management System.          and procedures were suitably
         table                    process, add, change, or                                     designed to achieve the control
         management are           delete data in table       Made inquiries to responsible     objective specified, had been
         valid and                management to              OCFO/NFC programmers.             placed in operation but not
         comply with              minimize possible                                            operating effectively.
         Treasury, OPM,           adverse impact on          Reviewed applicable
         and other                processing.                OCFO/NFC directives.              The table management
         applicable                                                                            application has controls in
         Government                                                                            place to prevent inappropriate
         regulations and                                                                       updates to the tables; however,
         management                                                                            we found individuals at
         policies to                                                                           OCFO/NFC had access to
         minimize errors,                                                                      critical Payroll/Personnel
         fraudulent                                                                            Systems that was not within
         entries, and                                                                          the scope of their job function.
         unauthorized                                                                          (See Finding No. 2.)
         data.

    6.   Ensure that time   a. Ensure accuracy, validity     Reviewed relevant application     The control structure policies
         and attendance        of the information, and       documentation and made            and procedures were suitably
         documents             compliance with               inquiries of system               designed to achieve the control
         (T&A’s)are            regulations.                  programmers.                      objective specified, had been
         received and       b. Verify the receipt and                                          placed in operation and
         processed             status of agency contact      Reviewed various                  operating effectively.
         timely,               and running of T&A            payroll/personnel exception
         accurately, and       reports.                      reports.
         according to       c. Correct and reprocess
         Government            suspended T&A's.              Observed OCFO/NFC
         regulations.          Research multiple             processing of T&A's.
                               employee T&As, to             Reviewed OCFO/NFC
                               identify the block,           procedures for correcting
                               batch, and sequence           T&A's and other relevant
                               number of the                 directives. Reviewed relevant
                               suspended T&As.               system reports.
                               Correct duplicate T&As
                               to ensure that each           Made inquiries to responsible
                               employee is paid only         OCFO/NFC personnel.
                               once for the current pay
                               period. Establish a
                               Special Payroll
                               Processing System
                               record for an
                               indebtedness and/or
                               death case if T&A is
                               marked final or
                               termination action
                               applies.




USDA/OIG-A/11401-20-FM                                                                                                    Page 22
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                           Exhibit A – Page 5 of 13

    Control Objective             Control Techniques               Tests Performed                      Conclusions


    7.   Ensure that         a.    Assign Form AD-343,        Reviewed Federal guidelines       The control structure policies
         manually                  Payroll Action Requests,   regarding need for unique login   and procedures were not
         processed salary          Document Tracking          identifiers.                      suitably designed to achieve
         payments are              System External, Special                                     the control objective specified.
         accurate and              Payroll Processing         Reviewed criteria for AD343
         timely, and               System, Quick Service      authorizations.                   We found access control
         comply with               Wires, or other requests                                     weaknesses that violate
         regulations.              for manual payments        Compared list of Special          separation of duties controls,
                                   promptly to unit           Payroll Process System            and excessive access that was
                                   accounting technicians,    transactions to list of those     not needed to perform the
                                   payroll technicians, and   authorized to process AD343s      user’s job functions. Also, we
                                   clerks to ensure timely    for one agency.                   found weak access controls
                                   processing in Special                                        over OCFO/NFC’s Download
                                   Payroll Processing         Reviewed OCFO/NFC reports         Center. (See Finding No. 2.)
                                   System.                    designed to identify employees
                                                              updating their own payroll and
                                                              personnel transactions.

                                                              Made inquiries to responsible
                                                              OCFO/NFC personnel.

    8.   Ensure that new     a.    Provide comprehensive      Reviewed application              The control structure policies
         and current               user training on           documentation for applicable      and procedures were suitably
         clients are               applicable system          systems.                          designed to achieve the control
         adequately                applications.                                                objective specified, had been
         trained to                                           Made inquiries to responsible     placed in operation and were
         effectively and                                      OCFO/NFC personnel.               operating effectively.
         efficiently use
         the applicable
         NFC system,
         including
         electronic access
         applications.




USDA/OIG-A/11401-20-FM                                                                                                     Page 23
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                           Exhibit A – Page 6 of 13

    Control Objective             Control Techniques                Tests Performed                     Conclusions


    9.   Ensure that NFC     a.    Review                      Reviewed OCFO/NFC                 The control structure policies
         systems,                  recommendations for         procedures for the selected       and procedures were suitably
         including new             modifications to screen     applications.                     designed to achieve the control
         and revised               designed and/or data                                          objective specified, had been
         electronic                field names to ensure       Tested and evaluated the          placed in operation and were
         systems, are user         ease of operations, user    software used to input            operating effectively.
         friendly.                 friendliness, and           payroll/personnel information.
                                   consistency with other
                                   screens and/or systems.     Made inquiries to responsible
                                                               OCFO/NFC personnel.

                                                               Interviewed timekeepers.




    10. Ensure               a.    Prepare IDPs in                                               The control structure policies
        Individual                 accordance with NFC         Obtained training records for a   and procedures were suitably
        Development                Directives.                 sample of employees with          designed to achieve the control
        Plans (IDPs) are                                       significant security              objective specified, had been
                             b.    Assess needs of             responsibilities.                 placed in operation and
        properly
                                   employees to determine                                        operating effectively.
        developed and
                                   training required to        Reviewed training records to
        executed in
                                   successfully perform        determine whether training was
        compliance with
                                   present duties.             adequate.
        applicable laws,
        regulations, and     c.    Provide employees with
        policies.                  activities to enhance
                                   their skills so that they
                                   may perform and
                                   advance to their highest
                                   potential.




USDA/OIG-A/11401-20-FM                                                                                                     Page 24
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                             Exhibit A – Page 7 of 13

    Control Objective             Control Techniques                 Tests Performed                      Conclusions


    11. Ensure that all      a.    Obtain appropriate           Obtained a status report and      The control structure policies
        OCFO/NFC and               background checks or         performed an analysis to          and procedures were suitably
        contractor                 investigations for           determine whether if progress     designed to achieve the control
        personnel have             selected/appointed           had been made relating to the     objective specified, had been
        the appropriate            individuals prior to their   background investigations and     placed in operation but not
        position                   being placed in the          reinvestigations cited in the     fully operating effectively.
        sensitivity codes,         designated position.         fiscal year 2003 General
        clearances, and      b.    Monitor suspense dates       Controls report.                  We identified 27 high-risk
        background                 for completed                                                  computer/information systems
        investigations as          investigations for high-                                       positions that either did not
        directed by                risk positions to ensure                                       have a background
        USDA, OPM,                 that investigative                                             investigation or did not have a
        and OMB                    actions are taken within                                       re-investigation within the
        guidelines.                30 days of the 5-year                                          required 5-year period.
                                   anniversary.                                                   (See Finding No. 1.)


                             a. Control access to IS            Interviewed responsible           The control structure policies
    12. Develop and
                                 resources.                     OCFO/NFC personnel,               and procedures were not
        maintain an
        effective IS                                            reviewed rules for firewall       suitably designed to achieve
        security program                                        system, and evaluated             the control objective specified.
        in compliance                                           supporting documentation for
        with OMB                                                selected rules.                   OCFO/NFC has made
        Circular A-130,                                                                           significant improvements to
        Departmental                                            Performed vulnerability           comply with Federal
        Regulation (DR)                                         assessments on selected servers   regulations; however, we found
        3140, FIPS,                                             and network devices.              that OCFO/NFC had not
        FISMA, and                                                                                updated its directive and
        NIST.                                                   Reviewed applicable               functional statements to clearly
                                                                OCFO/NFC policies and             define security responsibilities
                                                                procedures.                       after its 2002 reorganization.
                                                                                                  Finally, OCFO/NFC had not
                                                                                                  completed all required
                                                                                                  background investigations for
                                                                                                  individuals in high-risk
                                                                                                  positions. OCFO/NFC had not
                                                                                                  ensured that modems on its
                                                                                                  network were adequately
                                                                                                  tracked or properly secured,
                                                                                                  that its firewall configurations
                                                                                                  were appropriately maintained,
                                                                                                  or that logs were periodically
                                                                                                  reviewed on its Web and Unix
                                                                                                  servers. (See Finding Nos. 1
                                                                                                  and 3.)




USDA/OIG-A/11401-20-FM                                                                                                       Page 25
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                    Exhibit A – Page 8 of 13

    Control Objective       Control Techniques                 Tests Performed                   Conclusions


    13. Ensure adequate   a. Develop system testing       Interviewed OCFO/NFC            The control structure policies
        testing of new        procedures and              personnel and reviewed          and procedures were suitably
        and modified          standards as specified in   applicable directives and       designed to achieve the control
        applications.         NFC directives that         procedures.                     objective specified, had been
                              include:                                                    placed in operation but were
                          1) Testing prior to             Selected and reviewed           not operating effectively.
                              implementation of new       application changes that were
                              and modified                implemented between October     We found that OCFO/NFC had
                              applications and            1, 2003, and March 31, 2004.    documented system
                              scheduled releases.                                         requirements for 20 of the 25
                                                          Selected and reviewed           non-emergency changes that
                          2) Use of comprehensive
                                                          emergency application changes   we reviewed, but had not
                              test data and
                                                          implemented between October     obtained user approval of these
                              nonproductive copies of
                                                          1, 2003, and March 31, 2004.    software requirements for any
                              live files.
                                                                                          of these 20 changes.
                          3) Participation by users
                              and other groups                                            We found that OCFO/NFC had
                              involved with the                                           not performed acceptance
                              application, including                                      testing for application changes
                              preparation of test data                                    that are classified as mandated.
                              by users.                                                   (See Finding No. 4.)
                          4) Testing various
                              combinations of
                              conditions, realistic
                              volumes, and infrequent
                              processing.
                          5) Testing the application’s
                              interface with other
                              systems.
                          6) Providing for review
                              and approval of test
                              results by users and
                              developers prior to
                              moving into production.
                          7) Develop and implement
                              acceptance testing plans
                              in accordance with NFC
                              standards prior to
                              placing in production.
                          8) Document results of
                              acceptance tests and
                              resolve problem areas.




USDA/OIG-A/11401-20-FM                                                                                               Page 26
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                     Exhibit A – Page 9 of 13

    Control Objective          Control Techniques             Tests Performed                     Conclusions


    14. Ensure that       a. Establish an                Reviewed system                   The control structure policies
        program changes      independent quality         documentation for OCFO/NFC        and procedures were suitably
        are authorized       assurance group to          library management software       designed to achieve the control
        and accurately       process program             and change control system.        objective specified, had been
        implemented to       changes to ensure                                             placed in operation and were
        reduce the           program integrity.          Interviewed responsible           operating effectively.
        potential for     b. Develop and implement       OCFO/NFC personnel.
        errors or            a formal procedure for
        irregularities.      transferring new and
                             modified application
                             programs into
                             production libraries.
                          c. Produce reports of
                             program changes and
                             provide the reports for
                             management review
                             upon request.
                          d. Maintain a history of
                             program changes in
                             accordance with
                             General Services
                             Administration retention
                             schedule.
    15. Ensure that       a. Maintain a program          Obtained and reviewed access      The control structure policies
        application          library management          reports for the OCFO/NFC          and procedures were suitably
        programs and         software system to          mainframe production program      designed to achieve the control
        related              restrict update access to   source code, load and procedure   objective specified, had been
        documentation        production versions of      libraries.                        placed in operation and were
        are physically       application modules to a                                      operating effectively.
        and logically        designated group of
        secure.              authorized individuals.
                          b. Deny developers update
                             access to production
                             programs.




USDA/OIG-A/11401-20-FM                                                                                               Page 27
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                             Exhibit A – Page 10 of 13

    Control Objective             Control Techniques                 Tests Performed                       Conclusions


    16. Ensure that access                                   Reviewed the mainframe                 The control structure policies
                             a. Define and implement
        to online systems                                     security software control             and procedures were suitably
                                 policies and procedures
        is controlled.                                        options that impact password          designed to achieve the control
                                 for issuing user ID and
                                 password administration.     administration. Also, tested          objective specified, had been
                             b. Develop security which
                                                              selected servers for certain          placed in operation but not
                                 restricts access to defined  password vulnerabilities.             operating effectively.
                                 data and programs that are
                                 necessary to perform a      Requested and obtained listings        We found individuals within
                                 specific job function.       of user IDs from OCFO/NFC             OCFO/NFC and external to
                                                               and selected client agencies to      OCFO/NFC with access to
                             c.    Reports of incidents of
                                                               determine whether user IDs           update personnel/payroll
                                   suspected inappropriate
                                                               were granted only to employees       applications although their
                                   access are produced and
                                   reviewed.
                                                               whose job responsibilities           current job function did not
                                                               required such access.                require access. We found
                             d.    Monitor user activity and                                        individuals with access that
                                   provide reports to
                                                               Reviewed access reports for          violated separation of duty
                                   management for inactive
                                                               selected applications and a          controls. (See Finding No. 2.)
                                   accounts.
                                                               sensitive dataset file to identify
                             e.    Provide access through      individuals granted                  We found some OCFO/NFC
                                   secure connectivity with    inappropriate access and             staff that had access to
                                   approved security form.     separation of duty based on          confidential data that exceeds
                                                               their job function.                  what was required to perform
                                                                                                    their job duties. (See Finding
                                                               Reviewed monitoring reports          No. 2.)
                                                                and procedures.
                                                                                                    OCFO/NFC had not ensured
                                                               Obtained a file of mainframe         that modems on its network
                                                               user IDs that included the date      were adequately tracked or
                                                               of last use and identified user      properly secured, that its
                                                               IDs that had not been used in        firewall configurations were
                                                               more than 150 days.                  appropriately maintained, or
                                                                                                    that logs were periodically
                                                               Reviewed the results of a            reviewed on its Web and Unix
                                                               commercially available               servers. .
                                                               software product that was used       (See Finding No. 3.)
                                                               by OCFO/NFC to identify
                                                               security risks posed by
                                                               modems, compared the
                                                               modems identified to the
                                                               modems database, and verified
                                                               that the identified modems were
                                                               properly secured.

                                                               Interviewed responsible
                                                               OCFO/NFC personnel for
                                                               selected activities and functions
                                                               reviewed.




USDA/OIG-A/11401-20-FM                                                                                                         Page 28
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                             Exhibit A – Page 11 of 13

    Control Objective            Control Techniques                 Tests Performed                         Conclusions


    17. Ensure that         a.    Provide access to            Reviewed monitoring reports,         The control structure policies
        access to data is         sensitive or critical data   and applicable procedures.           and procedures were suitably
        controlled to             only when needed for                                              designed to achieve the control
        minimize                  processing.                  Reviewed                             objective specified, had been
        unauthorized                                           identification/authentication for    placed in operation but were
        access.                                                selected applications and the        not operating effectively.
                                                               Download Center.
                                                                                                    OCFO/NFC is not adequately
                                                               Obtained and reviewed a copy         controlling the accesses to the
                                                               of the files on the Download         systems we selected for
                                                               Center.                              review. (See Finding No. 2.)

                                                               Reviewed access reports for          We found some users within
                                                               one sensitive dataset file used to   OCFO/NFC and external to
                                                               store sensitive data when            OCFO/NFC that had update
                                                               submitted to the OCFO/NFC            access to selected applications
                                                               for processing.                      although their current job
                                                                                                    function did not require such
                                                               Interviewed responsible              access. In some instances, the
                                                               OCFO/NFC personnel.                  access violated separation of
                                                                                                    duty controls. (See Finding
                                                                                                    No. 2.)

                                                                                                    We found that there were
                                                                                                    inadequate access controls to
                                                                                                    the Download Center, which
                                                                                                    could lead to the disclosure of
                                                                                                    sensitive information covered
                                                                                                    by the Privacy Act of 1974.
                                                                                                    (See Finding No. 2.)




USDA/OIG-A/11401-20-FM                                                                                                         Page 29
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                    Exhibit A – Page 12 of 13

    Control Objective           Control Techniques          Tests Performed                       Conclusions


    18. Ensure that        a.    Inform employees of   Reviewed OCFO/NFC                   The control structure policies
        NFC provides             the ADP security      organization chart, security        and procedures were suitably
        security,                program and their     directives, functional statements   designed to achieve the
        confidentiality,         responsibilities.     and made inquiries to               control objective specified,
        integrity, and                                 OCFO/NFC personnel to               had been placed in operation
        availability of                                determine actual procedures in      to ensure confidentiality but
        software and                                   place.                              not operating effectively.
        data on
                                                       Reviewed applicable OMB and
        mainframe and                                                                      We found that the security
                                                       FISMA requirements.
        personal                                                                           responsibilities are not
        computers.                                                                         accurately assigned because the
                                                                                           responsibilities have not been
                                                                                           updated to reflect
                                                                                           organizational changes.
                                                                                           Furthermore, security
                                                                                           responsibilities are not clearly
                                                                                           defined in some OCFO/NFC
                                                                                           directives and functional
                                                                                           statements because procedures
                                                                                           at OFCO/NFC have not been
                                                                                           updated to clearly delineate
                                                                                           security functions.
                                                                                           (See Finding No. 1.)

                                                                                           We found some users within
                                                                                           OCFO/NFC and external to
                                                                                           OCFO/NFC that had update
                                                                                           access to selected applications
                                                                                           although their current job
                                                                                           function did not require such
                                                                                           access. In some instances, the
                                                                                           access violated separation of
                                                                                           duty controls. (See Finding
                                                                                           No. 2.)




USDA/OIG-A/11401-20-FM                                                                                                Page 30
Exhibit A – Office of Inspector General, Review of Selected Controls
                                                                                                           Exhibit A – Page 13 of 13

    Control Objective            Control Techniques                Tests Performed                        Conclusions


    19. Ensure that         a.    Maintain adequate           Reviewed compensating               The control structure policies
        access to                 segregation of duties to    controls for separation of duties   and procedures were suitably
        resources and             prevent an individual       for individuals who had access      designed to achieve the control
        records is                from performing two or      to process transactions on one      objective specified, had placed
        limited to                more incompatible           critical application.               in operation but were not
        authorized                functions.                                                      operating effectively.
        individuals, and
        accountability                                                                            We found OCFO/NFC
        for custody and                                                                           personnel and some of its
        use of resources                                                                          clients had access to critical
        is assigned and                                                                           payroll and personnel
        maintained.                                                                               applications that exceed what
                                                                                                  was required to perform their
                                                                                                  job functions. In some
                                                                                                  instances, the access provided
                                                                                                  also violated separation of duty
                                                                                                  controls. (See Finding No. 2.)


    20. Ensure that         a.    Verify that access to       Reviewed data backup files.         The control structure policies
        sensitive data            items or reports                                                and procedures were suitably
        that contain              containing personal         Reviewed OCFO/NFC                   designed to achieve the control
        personal                  identifiers is restricted   procedures and directives           objective specified, had been
        identifiers are           to only authorized          relating to privacy act and         placed in operation and not
        adequately                persons who need the        confidentiality.                    operating effectively.
        protected in              data to perform their job
        compliance with           functions.                  Reviewed OMB guidance               We found that some
        the Privacy Act                                       relating to privacy.                OCFO/NFC personnel have
        and Directive 55.                                                                         access to confidential data that
                                                              We requested and obtained           exceeds that is required to
                                                              listings of user IDs from           perform their job duties. (See
                                                              OCFO/NFC and selected client        Finding No. 2.)
                                                              agencies to determine whether
                                                              user IDs were granted only to
                                                              employees whose job
                                                              responsibilities required such
                                                              access.

                                                              Made inquiries to responsible
                                                              OCFO/NFC personnel.




USDA/OIG-A/11401-20-FM                                                                                                       Page 31
